Case 6:19-cr-00083-RAW Document 71 Filed 04/30/20 Page 1 of 7

AO 245B Appellate
(Rev. 09/19) Judgment
a Criminal Case Document: 010110377642
Case:in20-7022
Date Filed: 07/16/2020
Sheet 1
ATTACHMENT 2 TO PETITION FOR CERTIORARI

Page: 81

UNITED STATES DISTRICT COURT
Eastern District of Oklahoma
)
JUDGMENT IN A CRIMINAL CASE
UNITED STATES OF AMERICA
)
v.
)
)
Case Number:
CR-19-00083-001-RAW
)
ZACHARY GAGE PEBLEY
)
USM Number:
08655-063
a/k/a Zackary Gage Pebley
)
)
Robert S. Williams, AFPD
Defendant’s Attorney
)

THE DEFENDANT:
pleaded guilty to count(s)
pleaded nolo contendere to count(s)
which was accepted by the court.
was found guilty on count(s)
after a plea of not guilty.

1 & 2 of the Indictment

The defendant is adjudicated guilty of these offenses:
Title & Section
18:2113(a) &
2113(d)

Nature of Offense
Bank Robbery

Offense Ended
October 15, 2019

Count
1

18:924(c)(1)(A)(ii)

Use, Carry, and Brandish a Firearm during and in Relation to
a Crime of Violence

October 15, 2019

2

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

7

of this judgment. The sentence is imposed pursuant to

The defendant has been found not guilty on count(s)
Count(s)

is

are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay
restitution, the defendant must notify the court and United States attorney of material changes in economic circumstances.
April 29, 2020
Date of Imposition of Judgment

April 30, 2020
Date

81

Case 6:19-cr-00083-RAW Document 71 Filed 04/30/20 Page 2 of 7

AO 245B Appellate
(Rev. 09/19) Judgment
in Criminal
Case
Case:
20-7022
Document: 010110377642 Date Filed: 07/16/2020
Sheet 2 — Imprisonment
ATTACHMENT 2 TO PETITION FOR CERTIORARI
Judgment — Page

DEFENDANT:
CASE NUMBER:

Page: 82
2

of

7

Zachary Gage Pebley, a/k/a Zackary Gage Pebley
CR-19-00083-001-RAW

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a
total term of:

63 months on Count 1 of the Indictment and 84 months on Count 2 of the Indictment. The term of imprisonment imposed on
Count 2 shall be served consecutively to the term imposed in Count 1. The terms of imprisonment imposed in each of Counts
1 and 2 shall be served concurrently with any sentence which may be imposed in Carter County District Court case number
CF-2019-453.
The court makes the following recommendations to the Bureau of Prisons:
That the Bureau of Prisons evaluate the defendant and determine if the defendant is a suitable candidate for the Intensive Drug Treatment Program. Should the
defendant be allowed to participate in the program, it is further recommended that the defendant be afforded the benefits prescribed and set out in 18 U.S.C. §
3621(e) and according to Bureau of Prisons’ policy.
That the defendant be placed in a federal facility as close to Macomb, OK, as possible to facilitate family contact.
The Court shall be informed in writing as soon as possible if the Bureau of Prisons is unable to follow the Court’s recommendations, along with the reasons for
not following such recommendations made by the Court.

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:
at
a.m.
p.m.
on
as notified by the United States Marshal.
The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

.

before 2 p.m. on
.
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

82

Case 6:19-cr-00083-RAW Document 71 Filed 04/30/20 Page 3 of 7
Appellate Case: 20-7022 Document: 010110377642 Date Filed: 07/16/2020 Page: 83
AO 245B (Rev. 09/19) Judgment in a Criminal
Case
ATTACHMENT
2 TO PETITION FOR CERTIORARI
Sheet 3 — Supervised Release

Judgment—Page

DEFENDANT:
CASE NUMBER:

3

of

7

Zachary Gage Pebley, a/k/a Zackary Gage Pebley
CR-19-00083-001-RAW

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :
3 years on Count 1 of the Indictment and 3 years on Count 2 of the Indictment. The terms of supervised release shall run concurrently.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

83

AO 245B
(Rev. 09/19)
Appellate

Case 6:19-cr-00083-RAW
Document 71 Filed 04/30/20 Page 4 of 7
Judgment20-7022
in a Criminal CaseDocument: 010110377642
Case:
Date Filed: 07/16/2020 Page: 84
Sheet 3A — Supervised
Release
ATTACHMENT 2 TO PETITION FOR CERTIORARI
Judgment—Page

DEFENDANT:
CASE NUMBER:

4

of

7

Zachary Gage Pebley, a/k/a Zackary Gage Pebley
CR-19-00083-001-RAW

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer, after
obtaining Court approval, may require you to notify the person about the risk and you must comply with that instruction. The
probation officer may contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.

Defendant's Signature

Date

84

AO 245B(Rev.
09/19)
Appellate

Case 6:19-cr-00083-RAW
Document 71 Filed 04/30/20 Page 5 of 7
Judgment20-7022
in a Criminal CaseDocument: 010110377642
Case:
Date Filed: 07/16/2020 Page: 85
Release
Sheet 3D — Supervised
ATTACHMENT 2 TO PETITION FOR CERTIORARI
Judgment—Page

DEFENDANT:
CASE NUMBER:

5

of

7

Zachary Gage Pebley, a/k/a Zackary Gage Pebley
CR-19-00083-001-RAW
SPECIAL CONDITIONS OF SUPERVISION

1.

The defendant shall participate in a program approved by the United States Probation Office for the treatment of narcotic addiction,
drug dependency, or alcohol dependency, which will include testing to determine if he has reverted to the use of drugs or alcohol,
and may include outpatient treatment.

2.

The defendant shall submit to a search conducted by a United States Probation Officer of his person, residence, vehicle, office
and/or business at a reasonable time and in a reasonable manner, based upon reasonable suspicion of contraband or evidence of a
violation of a condition of release. Failure to submit to a search may be grounds for revocation.

3.

The defendant shall not enter, frequent, or be involved with any legal or illegal gambling establishment, Internet gambling, Indian
gaming or off-shore gambling, or activity during the period of supervision. The defendant shall sign a state-wide self-exclusion
form for casinos within the State of Oklahoma or the state in which he/she resides during the period of supervision. If it is determined
that the defendant has an addiction to gambling, upon Court approval, the defendant shall participate in a treatment program to
address gambling addiction until such time as the defendant is released from the program. The defendant may be required to
contribute to the cost of services (copayment) in an amount to be determined by the probation officer, based on the defendant’s
ability to pay.

85

Case 6:19-cr-00083-RAW Document 71 Filed 04/30/20 Page 6 of 7

AO 245BAppellate
(Rev. 09/19) Case:
Judgment in
a Criminal Case Document: 010110377642
20-7022
Date Filed: 07/16/2020
Sheet 5 — Criminal
Monetary Penalties
ATTACHMENT
2 TO PETITION FOR CERTIORARI
Judgment — Page

DEFENDANT:
CASE NUMBER:

6

Page: 86
of

7

Zachary Gage Pebley, a/k/a Zackary Gage Pebley
CR-19-00083-001-RAW

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

Assessment
TOTALS

$ 200.00

Restitution
$ 0.00

AVAA
Assessment*
$ 0.00

Fine
$ 0.00

The determination of restitution is deferred until
entered after such determination.

JVTA
Assessment**
$ 0.00

. An Amended Judgment in a Criminal Case (AO 245C) will be

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise
in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be
paid before the United States is paid.

Name of Payee

TOTALS

Total Loss***

Restitution Ordered

$

Priority or Percentage

$

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
the interest requirement is waived for
the interest requirement for

fine
fine

restitution.

restitution is modified as follows:

* Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.
** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
*** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on
or after September 13, 1994, but before April 23, 1996.

86

Case 6:19-cr-00083-RAW Document 71 Filed 04/30/20 Page 7 of 7
Appellate Case: 20-7022 Document: 010110377642 Date Filed: 07/16/2020 Page: 87
ATTACHMENT 2 TO PETITION FOR CERTIORARI
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 6 — Schedule of Payments
Judgment — Page

DEFENDANT:
CASE NUMBER:

7

of

7

Zachary Gage Pebley, a/k/a Zackary Gage Pebley
CR-19-00083-001-RAW

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

Lump sum payment of $
not later than
in accordance with

due immediately, balance due

C,

D,

, or
E, or

B

Payment to begin immediately (may be combined with

C

Payment in equal

D

Payment in equal

F below; or
C,

D, or

F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

Special instructions regarding the payment of criminal monetary penalties:
Said special assessment of $200 shall be paid through the United States Court Clerk for the Eastern District of Oklahoma, P.O.
Box 607, Muskogee, OK 74402, and is due immediately.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

Joint and Several
Case Number
Defendant and Co-Defendant Names
(including defendant number)

Total Amount

Joint and Several
Amount

Corresponding Payee,
if appropriate

The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA assessment,
(5) fine principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs, including cost of
prosecution and court costs.

87

